No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
JONATHAN WALLACE GOMEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Jonathan Wallace Gomez, pursuant to Rule 39 and 18 U.S.C. §
3006A(d)(6), asks leave to file the accompanying Petition for Writ of Certiorari to
the United States Court of Appeals for the Fifth Circuit without prepayment of
costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed under the Criminal Justice Act, 18 U.S.C. § 3006A(b) and (c), in the
United States District Court for the Northern District of Texas and on appeal to the
United States Court of Appeals for the Fifth Circuit.
Respectfully submitted November 18, 2020.
/s/ Taylor Wills Edwards “T.W.” Brown
Taylor Wills Edwards “T.W.” Brown
Assistant Federal Public Defender
Northern District of Texas
P.O. Box 17743
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Taylor_W_Brown@fd.org
Texas Bar No. 24087225

